WAIVER

Supreme Court of the United States

No. 21-387

George Berka ve City of Middletown, Connecticut, et al.
(Petitioner) (Respondents)

EDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court,

Please check the appropriate box:
f 1am filing this waiver on behalf of all respondents.

Q Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Lam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Atfn: ‘k’s Office, 1 First Street, NE, Washington, D.C. 20543).

  

 

 

 

 

Signature.
Date:
{Type or print) Name Bu gd S m ith
mS CMs. CO Mrs. 0 Miss

Address U5 ¢ ch elCOVEe: 1 Drive.
City & state Midd t own, cr tip LOAD |

Phone dO - WS¥- 4820 Email orig. Smith @ middletowact- “Jen

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

 

ce:

 

 

 

 
